HHS/OIG, Audit -"Audit of Medicaid Claims for Iowa's Rehabilitative Treatment Services Group Care Program,"(A-07-02-03026)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid Claims for Iowa's Rehabilitative Treatment Services Group Care Program," (A-07-02-03026)
September 3, 2004
Complete Text of Report is available in PDF format (2.1 mb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the amounts claimed by the State for the Rehabilitative Treatment Services Group Care program met Medicaid reimbursement requirements for Federal fiscal year (FFY) 2001.  Of the 100 claims sampled, 46 did not comply with Federal and State criteria.  Sixteen of those claims contained more than one error.  The errors occurred because the State lacked adequate internal controls over the Group Care program to ensure that services claimed for Medicaid reimbursement met applicable requirements.  We estimate that $3,305,208 of the $14,389,908 in Federal funds that the State claimed for FFY 2001 was unallowable.  We recommended that the State (1) refund $3,305,208 to the Federal Government, and (2) strengthen policies and procedures to ensure that services claimed for Medicaid reimbursement are directed exclusively to the rehabilitative treatment needs of the child, as defined in the Iowa State plan, and are in compliance with other State and Federal requirements.